                                                                      Ofice of Inspector General

                                                                      U.S. Department of Homeland Security
                                                                      Central Regional Office
                                                                      Office of Disaster Assistance Oversight
                                                                      3900 Karina Street, Room 224
                                                                      Denton, Texas 76208




                                           July 11,2007

MEMORANDUM FOR:              Sandy Coachman, Acting Director
                             FEMA Texas Transitional Recovery Office


FROM:                        Tonda L. Hadley, Director
                             Central Regional Office

SUBJECT:                     Jasper-Newton Electric Cooperative, Inc.
                             FEMA Disaster Number DR-1606-TX
                             Public Assistance Identification Number 000-UN08R-00
                             Audit Report Number DD-07-09


We audited public assistance funds awarded to the Jasper-Newton Electric Cooperative, Inc. (Co-op)
located in Kirbyville, Texas. Our audit objective was to determine whether the Co-op expended and
accounted for Federal Emergency Management Agency (FEMA) funds according to federal
regulations and FEMA guidelines.

As of October 11,2006, the cut-off date for our audit, the Co-op received an award of $32.2 million
from the Texas Governor's Division of Emergency Management (GDEM), a FEMA grantee, for
damages resulting from Hurricane Rita. The award was for 27 FEMA-approved projects funded at
100 percent. We reviewed costs for three projects totaling $24.4 million, or 76 percent of the award
(see Exhibit).

We performed the audit under the authority of the Inspector General Act of 1978, as amended, and
according to generally accepted government auditing standards. We interviewed Co-op, State, and
FEMA officials; reviewed the Co-op's accounting system, disaster cost documentation, and
contracting policies and procedures; and performed other procedures considered necessary under the
circumstances. We did not assess the adequacy of the Co-op's internal controls applicable to its
grant activities because it was not necessary to accomplish our audit objective. We did, however,
gain an understanding of the Co-op's grant accounting system used to account for disaster-related
costs.
                                       RESULTS OF AUDIT

In general, the Co-op expended and accounted for FEMA funds according to federal regulations and
FEMA guidelines. The Co-op properly accounted for FEMA funds by project and supported project
expenditures with invoices, copies of checks, and other documentation. In addition, with minor
exception, Co-op officials followed federal procurement regulations to contract for debris removal,
emergency protective measures, and restoring utilities. Co-op officials used a competitively bid
contract as a basis for determining whether contractors quoted reasonable rates and rejected
contractors with excessive rates. They also performed well in monitoring contract work. For
example, employees familiar with the Co-op's operations closely monitored all contract work and
instructed the contractors on where to perform repairs. Finally, Co-op officials properly terminated
all hourly contracts when power was restored to its customers and used competitively bid unit-price
contracts for permanent work. Therefore, we commend the Co-op for a job well done.

We identified two minor items resulting in questioned costs of $11,825:

       The Co-op's claim included invoices with ineligible overtime of $10,820. Co-op officials
       erroneously allowed overtime for one contractor whose employees had not first worked the
       40 hours necessary to charge overtime. The contract allowed overtime charges only after
       employees worked 40 hours per week or 10 hours per day. Because the overtime payments
       did not meet contract specifications, the $10,820 is ineligible. Co-op officials agreed that the
       overtime payments were incorrect and the charges ineligible.

       The Co-op's claim also included an ineligible cost mark-up of $1,005. One contractor
       included a 15% markup on the costs of employee meals and vehicle fuel. These mark-ups
       are ineligible because 44 CFR 13.36(f)(4) does not allow sub-grantees to use cost-plus-
       percentage-of-cost contracting methods. Co-op officials agreed that federal regulations
       prohibit these types of costs and the charges are ineligible.

                                      OTHER
                                       OTHER MATTERS
                                             MmattTERS

During our fieldwork, Co-op officials identified $22,195 of additional costs for a billing received
after they submitted their claim to the GDEM. They also received a refund from a contractor for
$16,840 for a billing error. To resolve these items, we advised Co-op officials to contact GDEM
officials to revise their claim.


                                     RECOMMENDATIONS
                                     RECOMMENDATIONS

We recommend that the Acting Director, Texas Transitional Recovery Office, in coordination with
the GDEM:

   1. Disallow $10,820 for ineligible contractor overtime costs.
   2. Disallow $1,005 for ineligible mark-up on contractor expenses.
             DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

We discussed the results of our audit with Co-op officials, GDEM officials, and FEMA officials on
May 22,2007. These officials concurred with our findings and recommendations. Please advise this
office by August 13,2007, of the action taken or planned to implement our recommendations,
including target completion dates for any planned actions. If you have questions concerning this
report, please call Christopher Dodd, Audit Manager at (940) 465-4018.


cc:    Audit Liaison, DHS
       Audit Liaison, FEMA
       Chief Financial Director, Gulf Coast Recovery Office
       Director, FEMA Region VI
       Audit Liaison, FEMA Region VI
       Public Assistance Officer, FEMA Texas Transitional Recovery Office
       Chief of Staff, FEMA Texas Transitional Recovery Office
       Director, Texas Governor's Division of Emergency Management
       Texas State Auditor
       Texas State Coordinating Officer
                                                                                                        EXHIBIT


                                        Schedule of Audited Projects
                                  Jasper-Newton Electric Cooperative, Inc.
                                   FEMA Disaster Number DR-1606-TX


       Project               Category               Award                  Claimed                  Questioned
       Number                Of Work                mount    '             ~rnount~                   Costs




        Totals




 he audit covered the period of September 23,2005, to October 11,2006, during which the Co-op claimed $32.2
million and the GDEM disbursed $20.4 million in FEMA funds for direct program costs.
2~epresentsthe amount claimed as of October 11,2006, the cut-off date for our audit. These three projects were 100%
complete at that time.
